APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS United States
Court of Appeals
FOR THE FIFTH CIRCUIT
Fifth Circuit
____________
No. 19-20237
____________

FILED
April 7, 2020
Lyle W. Cayce
Clerk

DAVID BUREN WILSON,
Plaintiff–Appellant
v.
HOUSTON COMMUNITY COLLEGE SYSTEM,
Defendant–Appellee
___________________
Appeal from the United States District Court
for the Southern District of Texas
__________________
Before DAVIS, SMITH, and STEWART, Circuit
Judges.
W. EUGENE DAVIS, Circuit Judge:
Plaintiff David Wilson appeals the district
court’s judgment dismissing his 42 U.S.C. § 1983
complaint for lack of subject matter jurisdiction
under Rule 12(b)(1). Wilson, a former trustee of the
Board of Trustees (“Board”) of Defendant Houston
Community College System (“HCC”), asserts that
HCC violated his First Amendment right to free
speech when the Board publicly censured him.
Because, under our precedent, Wilson’s allegations

2a
establish standing and state a claim for relief under
§ 1983 for a First Amendment violation, we
REVERSE the district court’s judgment and
REMAND Wilson’s § 1983 claim for damages for
further proceedings. As the parties agree, however,
Wilson’s claims for declaratory and injunctive relief
are moot, as Wilson is no longer a Board trustee.
Therefore, we GRANT HCC’s motion for partial
dismissal of Wilson’s appeal and instruct the district
court to dismiss Wilson’s claims for declaratory and
injunctive relief after remand.
I.

BACKGROUND

HCC is a public community college district1 that
operates community colleges throughout the greater
Houston area.2 HCC is run by its Board, which is
made up of nine trustees.3 Each trustee is elected by
the public from single-member districts to serve a sixyear term without remuneration.4 Through the
resolutions and orders it passes, the Board shapes
HCC’s policy, enhances the institution’s public image,
and preserves institutional independence.5 On
November 5, 2013, Wilson was elected to the Board
as the trustee for HCC District 2.

1
Under Texas law, a community college district is a “school
district,” and a school district is considered a “governmental
agency,” along with municipalities and other political
subdivisions of the state. TEX. LOC. GOV’T. CODE ANN.
§§ 271.003(4), (9).
2

TEX. EDUC. CODE ANN. §§ 130.0011, 130.182.

3

Id. § 130.084.

4

Id. § 130.082.

5

Id. § 51.352.

3a
Beginning in 2017, Wilson voiced concern that
trustees were violating the Board’s bylaws and not
acting in the best interests of HCC. After disagreeing
with HCC’s decision to fund a campus in Qatar,
Wilson made his complaints public by arranging
robocalls regarding the Board’s actions and
interviewing with a local radio station. When HCC
allowed one trustee to vote via videoconference,
Wilson contended that the bylaws prohibited such
voting. He subsequently filed a lawsuit against HCC
and the individual Board trustees in state court
seeking
a
declaratory
judgment
that
the
videoconference vote was illegal under the bylaws
and requesting an injunction. After the Board
allegedly excluded Wilson from an executive session,
he filed a second lawsuit against HCC and the
trustees in state court asserting that his exclusion
was unlawful and again seeking declaratory and
injunctive relief.6
Additionally, Wilson hired a private investigator
to confirm that one of the trustees did in fact reside
within the district in which she was elected. He
maintained a website where he published his
concerns, referring to his fellow trustees and HCC by
name. Wilson also hired a private investigator to
investigate HCC.
On January 18, 2018, the Board voted in a
regularly-scheduled session to adopt a resolution
publicly censuring Wilson for his actions. In the
censure resolution, the Board chastised Wilson for
Wilson ultimately amended his first lawsuit to include the
claims asserted in his second lawsuit and voluntarily dismissed
the second lawsuit.
6

4a
acting in a manner “not consistent with the best
interests of the College or the Board, and in violation
of the Board Bylaws Code of Conduct.” The censure,
the Board emphasized, was the “highest level of
sanction available,” as Wilson was elected and could
not be removed. The Board directed Wilson to
“immediately cease and desist from all inappropriate
conduct” and warned that “any repeat of improper
behavior by Mr. Wilson will constitute grounds for
further disciplinary action by the Board.”7
Upon being censured, Wilson amended his first
state-court petition to include claims against HCC
and the trustees under 42 U.S.C. § 1983, asserting
that the censure violated his First Amendment right
to free speech and his Fourteenth Amendment right
to equal protection. Wilson asserted that the Board’s
bylaws were overly broad and unconstitutional as
applied to him and were subject to “strict scrutiny”
review. He therefore requested that HCC and the
trustees be enjoined from enforcing the censure.
Wilson also sought $10,000 in damages for mental
anguish, $10,000 in punitive damages, and
reasonable attorney’s fees.
HCC and the trustees subsequently removed
Wilson’s state-court proceeding to federal district
court on the basis of federal question jurisdiction.

The Board also resolved to impose the following sanctions
as part of its censure: (1) Wilson would be ineligible for election
to Board officer positions for the 2018 calendar year, (2) Wilson
would be ineligible for reimbursement for any college-related
travel for the 2017-18 college fiscal year, and (3) Wilson’s
requests for access to the funds in his Board account for
community affairs would require Board approval.
7

5a
Wilson filed a motion for remand, which the district
court denied. Wilson thereafter amended his
complaint naming only HCC as a defendant and
dropping his claims against the individual trustees.
HCC moved to dismiss Wilson’s suit pursuant to
Rule 12(b)(1) for lack of jurisdiction and Rule 12(b)(6)
for failure to state a claim. The district court granted
HCC’s motion to dismiss under Rule 12(b)(1) for lack
of jurisdiction, determining that Wilson could not
demonstrate an injury in fact and therefore lacked
Article III standing. Wilson timely appealed.
In August 2019, Wilson resigned as trustee for
HCC’s District 2. In the November 2019 election,
Wilson ran as a candidate in the race for trustee of
HCC’s District 1. He was ultimately defeated in the
December 2019 run-off election.
II. DISCUSSION
A. Standard of Review
This court’s review of dismissals under Rule
12(b)(1) for lack of jurisdiction and dismissals under
Rule 12(b)(6) for failure to state a claim is de novo.8
When a party files multiple Rule 12 motions, we
must consider the Rule 12(b)(1) jurisdictional attack
before considering the Rule 12(b)(6) merits
challenge.9 The party responding to the 12(b)(1)
motion bears the burden of proof that subject matter
jurisdiction exists.10 A district court may find a lack
Ramming v. United States, 281 F.3d 158, 161 (5th Cir.

8

2001) (per curiam).
9

Id.

10

Menchaca v. Chrysler Credit Corp., 613 F.2d 507, 511

(5th Cir. 1980).

6a
of subject matter jurisdiction on either: “(1) the
complaint alone; (2) the complaint supplemented by
undisputed facts evidenced in the record; or (3) the
complaint supplemented by undisputed facts plus the
court’s resolution of disputed facts.”11
To survive a motion to dismiss under Rule
12(b)(6), “a complaint must contain sufficient factual
matter, accepted as true, to state a claim to relief
that is plausible on its face.”12 “A claim has facial
plausibility when the plaintiff pleads factual content
that allows the court to draw the reasonable
inference that the defendant is liable for the
misconduct alleged.”13
B. Standing
Under Article III of the Constitution, federal
courts can resolve only “cases” and “controversies.”14
In line with this requirement, a plaintiff must have
standing—that is, a showing of (1) an injury in fact
(2) that is traceable to the defendant’s conduct and
(3) that can be redressed by the court.15 An injury in
fact is “an invasion of a legally protected interest
which is (a) concrete and particularized, and (b)
actual or imminent, not conjectural or hypothetical.”16
Voluntary Purchasing Groups, Inc. v. Reilly, 889 F.2d
1380, 1384 (5th Cir. 1989) (quoting Williamson v. Tucker, 645
11

F.2d 404, 413 (5th Cir. 1981)).

Edionwe v. Bailey, 860 F.3d 287, 291 (5th Cir. 2017)
(quoting Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)).
12

13

Iqbal, 556 U.S. at 678.

14

U.S. CONST. art. III, § 2.

15

Lujan v. Defs. of Wildlife, 504 U.S. 555, 560 (1992).

16

Id. (cleaned up).

7a
In the context of free speech, “the governmental
action need not have a direct effect on the exercise of
First Amendment rights . . . [but] must have caused
or must threaten to cause a direct injury to the
plaintiffs.”17
In dismissing Wilson’s complaint under Rule
12(b)(1), the district court, relying on the Tenth
Circuit’s decision in Phelan v. Laramie County
Community College Board of Trustees, held that
Wilson had not suffered any injury in fact.18
Specifically, the district court concluded that Wilson
could not show an invasion of a legally protected
interest because the Board’s censure did not forbid
Wilson from performing his official duties or speaking
publicly.19 The district court erred in relying on
Phelan to determine that Wilson lacked standing,
however, because the Phelan court held that the
plaintiff in fact had standing, noting that the plaintiff
had alleged the Board’s censure tarnished her
reputation.20
In this case, Wilson alleges that the censure was
issued to punish him for exercising his free speech
rights and caused him mental anguish. Under our
precedent, Wilson’s allegation of retaliatory censure

17

Meese v. Keene, 481 U.S. 465, 472 (1987).

Wilson v. Houston Cmty. Coll. Sys., No. 4:18-CV-00744,
2019 WL 1317797, at *3 (S.D. Tex. Mar. 22, 2019); see also
Phelan v. Laramie Cty. Cmty. Coll. Bd. of Trustees, 235 F.3d
1243 (10th Cir. 2000).
18

19

Wilson, 2019 WL 1317797 at *3.

20

235 F.3d at 1247 n.1.

8a
is enough to establish an injury in fact.21
Additionally, the Supreme Court has held that a free
speech violation giving rise to a reputational injury is
an injury in fact.22 A censure is defined as an “official
reprimand or condemnation; an authoritative
expression of disapproval or blame; reproach.”23
Wilson alleges that a public censure has caused him
mental anguish. That injury stemming from his
censure, like a reputational injury, is enough to
confer standing.24

See Colson v. Grohman, 174 F.3d 498, 508 (5th Cir. 1999)
(noting that “at least twice, this court has granted relief to
elected officials claiming First Amendment retaliation”)
(citations omitted). Our sister courts agree that a retaliatory
action resulting in a chilling of free speech constitutes an injury
in fact. See, e.g., Thaddeus-X v. Blatter, 175 F.3d 378, 394 (6th
Cir. 1999) (en banc) (“[T]he harm suffered is the adverse
consequences which flow from the . . . constitutionally protected
action.”); Hines v. Gomez, 108 F.3d 265, 269 (9th Cir. 1997)
(“The injury asserted is the retaliatory accusation’s chilling
effect on [plaintiff’s] First Amendment rights . . . . We hold that
[plaintiff’s] failure to demonstrate a more substantial injury
does not nullify his retaliation claim.”). See also Ibanez v. Fla.
Dep’t of Bus. & Prof’l Regulation, Bd. of Accountancy, 512 U.S.
136, 139 (1994) (holding, in commercial speech case, that state
board of accountancy’s censure of accountant violated First
Amendment, thereby assuming that a censure alone constitutes
an injury in fact).
21

22

Meese v. Keene, 481 U.S. 465, 473 (1987).

23

Censure, BLACK’S LAW DICTIONARY (11th ed. 2019).

In Sims v. Young, 556 F.2d 732, 734 (5th Cir. 1977), a
firefighter brought a First Amendment claim under § 1983
against city officials after being suspended for twenty days. We
held that the plaintiff had satisfied the injury-in-fact
requirement of standing despite the fact he had since been
reinstated because the suspension remained “a blot on his
24

9a
Though not precisely a matter of standing,
Wilson’s claims for declaratory and injunctive relief
run up against a jurisdictional problem. Wilson is no
longer a Board trustee; consequently, the HCC’s Code
of Conduct no longer governs him. Therefore, his
claims seeking declaratory and injunctive relief that
the Code of Conduct, and as applied to him through
the resolution of censure, is an unconstitutional prior
restraint are moot. We grant HCC’s motion for
partial dismissal of Wilson’s appeal of those claims
and instruct the district court to dismiss those claims
as moot after remand. Wilson’s claim for damages
continues to present a live controversy.25
C. First Amendment Claim
As we have noted, if “constitutional rights were
violated, and if that violation ‘caused actual damage,’
then [the plaintiff] has ‘stated a live claim under
§ 1983.’”26 Wilson argues that the censure he suffered
is an actionable First Amendment claim under
§ 1983. Although the district court did not technically
reach this issue, having dismissed the case for lack of
standing under Rule 12(b)(1) and not for failure to
record.” Id. A censure, like a suspension, can be characterized as
a “blot.”
25
See Boag v. MacDougall, 454 U.S. 364 (1975) (per curiam)
(although respondent complaining of solitary confinement had
since been transferred, “the transfer did not moot the damages
claim”); Morgan v. Plano Indep. Sch. Dist., 589 F.3d 740, 748
(5th Cir. 2009) (claim for nominal damages avoids mootness);
Pederson v. La. State Univ., 213 F.3d 858, 874 (5th Cir. 2000)
(graduation mooted claims for injunctive relief, not damages).

Wilson v. Birnberg, 667 F.3d 591, 595–96 (5th Cir. 2012)
(quoting Henschen v. City of Houston, 959 F.2d 584, 588 (5th
Cir. 1992)).
26

10a
state a claim under Rule 12(b)(6), it effectively
concluded that Wilson’s censure did not give rise to a
First Amendment claim.27 The district court followed
Phelan, which dismissed the plaintiff’s claim on
summary judgment, determining that the censure
did not infringe on the plaintiff’s free speech rights
because the censure did not punish her for exercising
those rights nor did it deter her free speech.28 Wilson
argues that the district court improperly endorsed
the Tenth Circuit’s decision in Phelan, ignoring Fifth
Circuit precedent and failing to recognize the
protection afforded to an elected official’s political
speech. We agree.
The Supreme Court has long stressed the
importance of allowing elected officials to speak on
matters of public concern.29 We have echoed this
principle in our decisions, emphasizing that “[t]he
role that elected officials play in our society makes it
all the more imperative that they be allowed freely to
express themselves on matters of current public

See Wilson v. Houston Cmty. Coll. Sys., No. 4:18-CV00744, 2019 WL 1317797, at *3 (S.D. Tex. Mar. 22, 2019) (“[The
Tenth Circuit in Phelan] has established that a majority’s
decision to censure a member of a political body does not give
rise to a First Amendment violation claim. While not binding,
the court’s reasoning in Phelan, is instructive here.” (internal
citation omitted)).
27

28

Phelan v. Laramie Cty. Cmty. Coll. Bd. of Trustees, 235

F.3d 1243, 1247 (10th Cir. 2000).

See, e.g., Bond v. Floyd, 385 U.S. 116, 135–36 (1966)
(“The manifest function of the First Amendment in a
representative government requires that legislators be given the
widest latitude to express their views on issues of policy.”).
29

11a
importance.”30 As a result, and as described below,
this court has held that censures of publicly elected
officials can be a cognizable injury under the First
Amendment.
We first visited whether a censure can constitute
a First Amendment violation in Scott v. Flowers.31
There, a plaintiff was elected to a four-year term as a
justice of the peace in Texas.32 Concerned that the
state was dismissing the majority of traffic-offense
ticket appeals, the judge published an “open letter” to
county officials criticizing the district attorney’s office
and county court.33 The Texas Commission on
Judicial Conduct (“Commission”) subsequently issued
a formal, public reprimand to the judge for being
“insensitive” in his statement, thereby “cast[ing]
public discredit upon the judiciary.”34 The reprimand
was a “warning,” cautioning him to be “more
restrained and temperate” in the future.35 The judge
filed suit under § 1983, arguing the public censure
violated his First Amendment right of free speech.36
This court applied the Supreme Court’s two-step
inquiry to assess public employees’ claims of First
Amendment violations set forth in Pickering v. Board
Rangra v. Brown, 566 F.3d 515, 524 (5th Cir.) (citation
omitted), dismissed as moot en banc, 584 F.3d 206 (5th Cir.
30

2009).
31

910 F.2d 201 (5th Cir. 1990).

32

Id. at 203.

33

Id. at 204.

34

Id.

35

Id. at 205 n.6.

36

Id. at 205.

12a

of Education.37 First, we determined that the judge’s

speech addressed a matter of public concern and
therefore was protected speech.38 Second, we
balanced the judge’s free speech rights against the
Commission’s countervailing interest in promoting
the efficient performance of its normal functions.39
We underscored that the judge was “not hired by a
governmental employer. Instead, he was an elected
official, chosen directly by the voters of his justice
precinct, and, at least in ordinary circumstances,
removable only by them.”40 The state consequently
could not justify its reprimand “on the ground that it
was necessary to preserve coworker harmony or office
discipline.”41 While we recognized that the state may
proscribe the speech of elected judges more so than
other elected officials, the censure touched upon “core
first amendment values.”42 We concluded that the
state’s “concededly legitimate interest in protecting
the efficiency and impartiality of the state judicial
system” could not outweigh the judge’s First
Amendment rights, and we expunged the censure.43
In Colson v. Grohman, this court reiterated there
is “no doubt” that formal reprimands are actionable

37

Id. at 210; see Pickering v. Bd. of Educ., 391 U.S. 563, 568

(1968).
38

Id. at 211.

39

Id.

40

Id. at 212.

41

Id.

Id. (quoting Morial v. Judiciary Comm’n of State of La.,
565 F.2d 295, 301 (5th Cir. 1977)).
42

43

Id. at 212–13.

13a
under § 1983.44 Reaffirming Scott, we explained that
“a formal reprimand, by its very nature, goes several
steps beyond a criticism or accusation and even
beyond a mere investigation.”45 “It is punitive in a
way that mere criticisms, accusations, and
investigations are not.”46
We again held that elected officials are entitled to
be free from retaliation for constitutionally protected
speech in Jenevein v. Willing.47 That case, like Scott,
centered on the Commission’s public censure of an
elected judge, this time a state district court judge.48
The judge had given a press conference and sent a
mass email to explain that he was filing a complaint
against a lawyer for comments made about him in
pleadings and that he therefore had to recuse
himself.49
Breaking from Scott, we held that the Pickering
balancing test did not apply to elected employees of
the state.50 Instead, we adopted strict scrutiny to
assess the government’s regulation of an elected
official’s speech to his constituency.51 Noting that a
44

174 F.3d 498, 512 (5th Cir. 1999).

45

Id. at 512 n.7.

46
Id. In Colson, by contrast, the court found that the
plaintiff had failed to state a claim; she was “never arrested,
indicted, or subjected to a recall election[,] [n]or was she
formally reprimanded.” Id. at 511 (internal footnote omitted).
47

493 F.3d 551 (5th Cir. 2007).

48

Id. at 556.

49

Id. at 553–55.

50

Id. at 557–58.

Id. at 558. In Rangra v. Brown, this court later clarified
that the Pickering balancing test did not apply to elected
51

14a
state’s interest in suppressing the speech of an
elected official is weak, we held that even though the
order was “entered in good faith effort to pursue the
public interest . . . [t]o the extent that the commission
censured Judge Jenevein for the content of his
speech, shutting down all communication between
the Judge and his constituents, we reverse and
remand with instructions to expunge that part of the
order.”52
The above precedent establishes that a
reprimand against an elected official for speech
addressing a matter of public concern is an actionable
First Amendment claim under § 1983. Here, the
Board’s censure of Wilson specifically noted it was
punishing him for “criticizing other Board members
for taking positions that differ from his own”
concerning the Qatar campus, including robocalls,
local press interviews, and a website. The censure
also punished Wilson for filing suit alleging the
Board was violating its bylaws. As we have
previously held, “[R]eporting municipal corruption
undoubtedly constitutes speech on a matter of public
concern.”53 Therefore, we hold that Wilson has stated
officials’ First Amendment retaliation claims, despite its earlier
use in Scott, because of intervening Supreme Court precedent
(specifically, Republican Party of Minn. v. White, 536 U.S. 765,
774–75 (2002)). 566 F.3d 515, 525 n.26 (5th Cir.), dismissed as
moot en banc, 584 F.3d 206 (5th Cir. 2009). The court
highlighted other instances in which strict scrutiny was used to
protect free speech concerning public matters. Id. at 525 n.25.
52

Jenevein, 493 F.3d at 560–62.

Harmon v. Dall. Cty., 927 F.3d 884, 893 (5th Cir. 2019),
as revised (July 9, 2019) (per curiam). See also Lane v. Franks,
53

573 U.S. 228, 241 (2014) (“[C]orruption in a public program and

15a
a claim against HCC under § 1983 in alleging that its
Board violated his First Amendment right to free
speech when it publicly censured him.
HCC tries to distinguish Scott and Jenevein,
arguing that the cases concerned judges, not local
legislators. But the fact that these cases dealt with
judges matters not. The Jenevein court emphasized
that elected judges are, ultimately, “political
actors”—if anything, judges are afforded less
protection than legislators.54 HCC also contends that,
unlike here, the Texas Commission on Judicial
Conduct could order judges to undergo additional
education, suspend them, or remove them from office.
Even if true, the Commission’s censure did not draw
upon such authority in either case.55
misuse of state funds [] obviously involve[] a matter of
significant public concern.”); Garcetti v. Ceballos, 547 U.S. 410,
425 (2006) (“Exposing governmental inefficiency and misconduct
is a matter of considerable significance.”).
493 F.3d at 560. See Scott v. Flowers, 910 F.2d 201, 212
(5th Cir. 1990) (“[W]e have recognized that the state may
restrict the speech of elected judges in ways that it may not
restrict the speech of other elected officials.”).
54

HCC is correct that the additional measures taken
against Wilson—(1) his ineligibility for election to Board officer
positions, (2) his ineligibility for reimbursement for collegerelated travel, and (3) the required approval of Wilson’s access
to Board funds—do not violate his First Amendment rights. A
board member is not entitled to be given a position as an officer.
See Rash-Aldridge v. Ramirez, 96 F.3d 117, 119 (5th Cir. 1996)
(per curiam) (a city council member did not have a First
Amendment claim after the council removed her from a board
following her public disagreement with the council majority).
Second, nothing in state law or HCC’s bylaws gives Wilson
entitlement to funds absent approval. As for travel
reimbursements, we have held that a failure to receive travel
55

16a
HCC also argues that it had a right to censure
Wilson as part of its internal governance as a
legislative body and that Wilson’s First Amendment
rights were not implicated. It cites to numerous cases
from our sister circuits, purportedly supporting its
argument. A close review of those cases, however,
reveals that those cases either did not involve
censures, or involved claims against only the
individual members of a governing body (and not the
governing body itself) who were entitled to assert
legislative immunity. For example, Blair v. Bethel
School District did not involve a public censure but a
vote by a public school board to remove a fellow board
member as vice president of the board.56 Zilich v.
Longo also did not concern a censure, but a city
council resolution declaring that a former council
member had violated the residency requirement and
a council ordinance authorizing suit to be filed to
recover the former member’s salary.57 Consequently,
these cases are inapposite.
The remainder of the cases relied upon by HCC
involved claims against only the individual members

reimbursement is not an adverse employment action for a public
employee’s First Amendment retaliation claim. Benningfield v.
City of Houston, 157 F.3d 369, 376 (5th Cir. 1998).
608 F.3d 540, 542 (9th Cir. 2010). The Ninth Circuit’s
decision in Blair that the school board was entitled to remove a
board member from a titular position is consistent with our
decision in Rash-Aldridge that an elected official does not have a
fundamental right to an appointed leadership position. 96 F.3d
at 119.
56

57

34 F.3d 359, 361 (6th Cir. 1994).

17a
of a governing body.58 As we have noted, under
Supreme Court precedent, absolute legislative
immunity is a “doctrine[] that protect[s] individuals
acting within the bounds of their official duties, not
the governing bodies on which they serve.”59 “Thus,
even if the actions of the [state agency’s] members
are legislative, rather than administrative, the [state
agency] itself as a separate entity is not entitled to
immunity
for
violation
of
the
[plaintiff’s]
constitutional rights.”60 Wilson has filed his claims
against only HCC, which is not entitled to legislative
immunity from Wilson’s § 1983 suit.
Lastly, HCC argues that Wilson’s conclusory
statements that he suffered emotional harm are
insufficient support for mental anguish damages. “To
survive a Rule 12(b)(6) motion to dismiss, a complaint
‘does not need detailed factual allegations,’ but must
provide the plaintiff’s grounds for entitlement to
relief—including factual allegations that when
See Rangel v. Boehner, 785 F.3d 19, 21 (D.C. Cir. 2015)
(claim by United States congressman against fellow
congressmen and other individuals for violating his
constitutional rights in issuing “a punishment of censure”);
Whitener v. McWatters, 112 F.3d 740, 741 (4th Cir. 1997) (claim
by county board member against fellow board members for
violating his First Amendment rights in censuring him for using
abusive language); Romero-Barcelo v. Hernandez-Agosto, 75
F.3d 23, 34 (1st Cir. 1996) (claim by former governor of Puerto
Rico against individual legislators for violating his
constitutional rights during legislative hearings investigating
governor’s role in a political scandal).
58

Minton v. St. Bernard Par. Sch. Bd., 803 F.2d 129, 133
(5th Cir. 1986); see also Owen v. City of Independence, Missouri,
445 U.S. 622, 657 (1980).
59

60

Mintoni, 803 F.2d at 133.

18a
assumed to be true ‘raise a right to relief above the
speculative level.’”61 As explained, Wilson has alleged
a plausible violation of his First Amendment rights
under § 1983. He contends that, stemming from the
defendant’s unlawful acts, he has suffered mental
anguish that warrants $10,000 in damages.62 Based
on the allegations set forth in his pleadings, Wilson
has alleged a plausible claim supporting mental
anguish damages.63
III. CONCLUSION
Based on the foregoing, we REVERSE the district
court’s judgment dismissing Wilson’s complaint for
lack of jurisdiction and REMAND Wilson’s § 1983
claim for damages for further proceedings consistent
with this opinion. Wilson’s claims for declaratory and
injunctive relief are moot, as Wilson is no longer a
trustee on the Board of HCC. Therefore, we GRANT
HCC’s motion for partial dismissal of Wilson’s appeal
Cuvillier v. Taylor, 503 F.3d 397, 401 (5th Cir. 2007)
(quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555 (2007)).
See also 5 Charles Alan Wright et al., FED. PRAC. & PROC.
§ 1202 (3d ed. 2019) (“[Rule 8(a)] requires the pleader to disclose
adequate information regarding the basis of his claim for relief
as distinguished from a bare averment that he wants relief and
is entitled to it.”).
61

62
Wilson will still need to support such a claim properly in
order to prevail after remand. See, e.g., Hitt v. Connell, 301 F.3d
240, 250–51 (5th Cir. 2002) (detailing the evidence needed to
support compensatory damages for mental anguish stemming
from a § 1983 free speech jury verdict).

Although Wilson also seeks $10,000 in punitive damages,
punitive damages are not available against HCC. See City of
Newport v. Fact Concerts, Inc., 453 U.S. 247, 270–71 (1981)
(holding that municipalities and other government entities are
immune from punitive damages under § 1983).
63

19a
and instruct the district court to dismiss Wilson’s
claims for declaratory and injunctive relief after
remand.
REVERSED AND REMANDED FOR FURTHER
PROCEEDINGS
CONSISTENT
WITH
THIS
OPINION; MOTION FOR PARTIAL DISMISSAL
GRANTED.

20a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
DAVID BUREN WILSON,

Plaintiff,
v.

HOUSTON COMMUNITY
COLLEGE SYSTEM, et al.,

[FILED 3/22/2019]
Civil Action No.
4:18-cv-00744

Defendants.

MEMORANDUM OPINION AND ORDER
KENNETH M. HOYT, United States District Judge
I. INTRODUCTION
Pending before the Court is the defendant’s,
Houston Community College System’s, (the
“defendant”), motion to dismiss pursuant to 12(b)(1)
and 12(b)(6) (Dkt. No. 17), the plaintiff’s, David B.
Wilson’s (the “plaintiff”), response to the motion (Dkt.
No. 21), and the defendant’s1 motion to dismiss reply.
(Dkt. No. 24). After having carefully considered the
motion, response, reply and the applicable law, the
Here, “defendant” also refers to the members of the board
of trustees named in the suit. While not listed, they serve as
part of the Houston Community College System entity for
purposes of this Memorandum Opinion and Order.
1

21a
Court determines that the defendants’ motion to
dismiss should be GRANTED.
II. FACTUAL BACKGROUND
In November 2013, the plaintiff was elected to
the Houston Community College System’s, ninemember board of trustees (the “board”). Trustees are
elected by the public to serve on the board for sixyear terms. On January 18, 2018, a majority of the
board voted to publicly censure the plaintiff for
conduct that was in the judgment of his fellow board
members detrimental to Houston Community College
Systems and its’ mission. Alleging violations of its
bylaws, the board determined that the plaintiff failed
to (1) respect the board’s collective decision-making
process; (2) engage in open and honest discussions in
making board decisions; (3) respect trustees’ differing
opinions; (4) interact with trustees in a mutually
respectful manner; and (5) act in Houston
Community College System’s best interest. The board
also resolved that the plaintiff would be: (1) ineligible
for election to a board officer position for the 2018
calendar year; (2) ineligible for travel-related expense
reimbursements for college year 2017-2018; and (3)
required to maintain board approval when requesting
access to funding for community affairs programs for
college year 2017-2018.
On February 7, 2018, the plaintiff amended his
state court complaint suing the defendant under 42
U.S.C. § 1983, seeking money damages for alleged
violations of his rights secured by the First and
Fourteenth
Amendments.
Subsequently,
the
defendant removed the case to this Court. On Jun 14,
2018, the plaintiff filed his second amended

22a
complaint with the Court. On July 24, 2018, the
defendant filed its motion to dismiss.
III. STANDARD OF REVIEW
A. Standard Under Fed. R. Civ. P. 12(b)(1)
Rule 12(b)(1) permits the dismissal of an action
for the lack of subject matter jurisdiction. Fed. R. Civ.
P. 12(b)(1). “If [a federal] court determines at any
time that it lacks subject-matter jurisdiction, [it]
must dismiss the action.” Fed. R. Civ. P. 12(h)(3); see
also Berkshire Fashions, Inc. v. M.V. Hakusan II, 954
F.2d 874, 880 (3d. Cir. 1992) (citing Rubin v.
Buckman, 727 F.2d 71, 72 (3d Cir. 1984) ) (reasoning
that “[t]he distinction between a Rule 12(h)(3) motion
and a Rule 12(b)(1) motion is simply that the former
may be asserted at any time and need not be
responsive to any pleading of the other party.”). Since
federal courts are considered courts of limited
jurisdiction, absent jurisdiction conferred by statute,
they lack the power to adjudicate claims. See, e.g.,
Stockman v. Fed. Election Comm’n, 138 F. 3d 144,
151 (5th Cir. 1998) (citing Veldhoen v. United States
Coast Guard, 35 F. 3d 222, 225 (5th Cir. 1994)).
Therefore, the party seeking to invoke the
jurisdiction of a federal court carries “the burden of
proving
subject
matter
jurisdiction
by
a
preponderance of the evidence.” Vantage Trailers,
Inc. v. Beall Corp., 567 F.3d 745, 748 (5th Cir. 2009)
(citing New Orleans & Gulf Coast Ry. Co. v. Barrois,
533 F.3d 321, 327 (5th Cir. 2008)); see also Stockman,
138 F.3d at 151.
When evaluating jurisdiction, “a [federal] court is
free to weigh the evidence and satisfy itself as to the
existence of its power to hear the case.” MD

23a

Physicians& Assoc., Inc. v. State Bd. Of Ins., 957
F.2d 178, 181 (5th Cir. 1992) (citing Williamson v.
Tucker, 654 F.2d 404, 413 (5th Cir. 1981) ); see also
Vantage Trailers, 567 F.3d at 748 (reasoning that

“[i]n evaluating jurisdiction, the district court must
resolve disputed facts without giving a presumption
of truthfulness to the plaintiff’s allegations.”). In
making its ruling, a court may rely on any of the
following: “(1) the complaint alone, (2) the complaint
supplemented by undisputed facts evidenced in the
record, or (3) the complaint supplemented by
undisputed facts plus the court’s resolution of
disputed facts.” MD Physicians, 957 F.2d at 181 n.2
(citing Williamson, 645 F.2d at 413).
B. Standard Under Fed. R. Civ. P. 12(b)(6)

Federal Rule of Civil Procedure 12(b)(6)
authorizes a defendant to move to dismiss for “failure
to state a claim upon which relief may be granted.”
Fed. R. Civ. P. 12(b)(6). Under the demanding
strictures of a Rule 12(b)(6) motion, “[t]he plaintiff’s
complaint is to be construed in a light most favorable
to the plaintiff, and the allegations contained therein
are to be taken as true.” Oppenheimer v. Prudential
Sec., Inc., 94 F.3d. 189, 194 (5th Cir. 1996) (citing
Mitchell v. McBryde, 944 F.2d 229, 230 (5th Cir.
1991) ). Dismissal is appropriate only if, the “[f]actual
allegations [are not] enough to raise a right to relief
above the speculative level, on the assumption that
all the allegation in the complaint are true (even if
doubtful in fact).’ Bell Atl. Corp. v. Twombly, 550
U.S. 544, 555 (2007). Moreover, in light of the
Federal Rule of Civil Procedure 8(a)(2), “[s]pecific
facts are not necessary; the [factual allegations] need
only ‘give the defendant fair notice of what the

24a
...claim is and the grounds upon which it rests.”
Erickson v. Pardus, 551 U.S. 89, 93 (2007) (per
curiam) (quoting Twombly, 550 U.S. at 555). Even so,
“a plaintiff’s obligation to provide the ‘grounds’ of his
‘entitle[ment] to relief’ requires more than lables [sic]
and conclusions, and a formulaic recitation of the
elements of a cause of action will not do.’ Twombly,
550 U.S. at 555 (citing Papason v. Allain, 478 U.S.
265, 286 (1986) ).
In Ashcroft v. Iqbal, the Supreme Court
expounded upon the Twombly standard, reasoning
that ‘[t]o survive a motion to dismiss, a complaint
must contain sufficient factual matter, accepted as
true, to ‘state a claim to relief that is plausible on its
face.’ ” Ashcroft v. Iqbal, 556 U.S. 662 (2009) (quoting
Twombly, 550 U.S. at 570). “A claim has facial
plausibility when the plaintiff pleads factual content
that allows the court to draw the reasonable
inference that the defendant is liable for the
misconduct alleged.’ Iqbal, 556 U.S. at 78 (citing
Twombly, 550 U.S. at 556). “But where the wellleaded facts do not permit the court to infer more
than the mere possibility of misconduct, the
complaint has alleged – but it has not ‘show[n]’– ‘that
the pleader is entitled to relief.’ ” Iqbal, 556 U.S. at
679 (quoting Fed. R. Civ. P. 8(a)(2) ).
Nevertheless, when considering a 12(b)(6) motion
to dismiss, the Court’s task is limited to deciding
whether the plaintiff is entitled to offer evidence is
support of his or her claims, not whether the plaintiff
will eventually prevail. Twombly, 550 U.S. at 563,
127 D. Ct. at 1969 n.8 (citing Scheuer v. Rhodes, 416
U.S. 232 (1974) ); see also Jones v. Greninger, 188
F.3d 322, 324 (5th Cir. 1999). In this regard, its

25a
review is limited to the allegations in the complaint
and to those documents attached to a defendant’s
motion to dismiss to the extent that those documents
are referred to in the complaint and are central to the
claims. Causey v. Sewell Cadillac-Chevrolet, Inc., 394
F. 3d 285, 288 (5th Cir. 2004). The Court may also,
however, “take judicial notice of documents in the
public record..., and may consider such documents in
determining a motion to dismiss.” R2 Invs. LDC v.
Phillips, 401 F.3d 638, 640 n. 2 (5th Cir. 2005) (citing
Lovelace v. Software Spectrum Inc., 78 F.3d 1015,
1017–18 (5th Cir. 1996)). “Such documents should be
considered only for the purpose of determining what
statements [they] contain, not to prove the truth of
[their] contents.’ Lovelace, 78 F.3d at 1018 (internal
citation omitted). “If, based on the facts pleaded and
judicially noticed, a successful affirmative defense
appears, then dismissal under Rule 12(b)(6) is
proper.” Hall v. Hodgkins, No. 08-40516, 2008 WL
5352000, (5th Cir. Dec. 23, 2008) (citing Kansa
Reinsurance Co., Ltd v. Cong. Mortg. Corp. of Tex.,
20 F.3d 1362, 1366 (5th Cir. 1994)).
IV. ANALYSIS AND DISCUSSION
The plaintiff’s request for declaratory and
injunctive relief alleges that the defendant violated
his First Amendment right of speech. The defendant
contends that the plaintiff lacks standing to assert
his claim. Standing is a threshold question in every
federal court case. It is well-settled that, “the
irreducible constitutional minimum of standing
contains three elements.” Lujan v. Defenders of
Wildlife, 504 U.S. 555 (1992). These elements are: (1)
an injury-in-fact that is concrete and actual or
imminent, not hypothetical; (2) a fairly traceable

26a
causal link between the injury and the defendant’s
actions; and (3) that the injury will likely be
redressed by a favorable decision. See, e.g., Bennett
v. Spear, 520 U.S. 154, 167 (1997); Little v. KPMG
LLP, 575 F.3d 533, 540 (5th Cir. 2009).
The plaintiff alleges that the board injured his
right to free speech by censuring him for actions they
disagreed with. Another circuit has established that a
majority’s decision to censure a member of a political
body does not give rise to a First Amendment
violation claim. Phelan v. Laramie Cnty. Cmty. Coll.,
Bd. Of Trustees, 235 F. 3d 1243 (10th Cir. 2000).
While not binding, the court’s reasoning in Phelan, is
instructive here. In Phalen, a community college
board of trustees passed a resolution censuring one of
its’ members for violating the college’s ethics policy.
The censure allowed the board to voice its’ opinion
that the member had violated the policy and to ask
that she not engage in similar conduct in the future.
The board member claimed that she was injured by
the censure because it tarnished her reputation. The
court found that the board’s censure did not injure
the plaintiff’s free speech rights since it did not
prevent her from performing her official duties or
restrict her opportunity to speak or her right to vote
as a board member. Id. at 1248. Ultimately, the
censured member remained free to express her views
publicly and to criticize the ethics policy and the
board’s censure. Id.
The facts in Phelan are analogous to the facts
before the Court. Here, the defendant, a community
college and board of trustees, passed a similar
resolution publicly censuring the plaintiff for conduct
violating its bylaws. The censure described the

27a
plaintiff’s
conduct
as
inappropriate
and
reprehensible. The plaintiff maintains that the
censure injured his free speech rights by enjoining
him from holding an office position on the board, from
accessing funds in his board account for community
affairs
without
board
approval
and
from
reimbursement of travel related expenses. Like in
Phelan, however, the censure does not cause an
actual injury to his right to free speech. The plaintiff
is not prevented from performing his official duties.
In spite of the censure, the plaintiff is free to continue
attending board meetings and expressing his
concerns regarding decisions made by the board.
Further, the censure does not prohibit him from
speaking publicly.
The plaintiff has failed to demonstrate any
injury-in-fact as required to establish standing under
12(b)(1). In order to prevail the plaintiff must show
that he suffered “an invasion of a legally protected
interest” that is concrete and particularized’ and
“actual or imminent, not conjectural or hypothetical.”
Spokeo, Inc. v. Robins, 136 S. Ct. 1540 (2016). The
plaintiff argues that he suffered harm by not being
reimbursed for travel expenses. The defendant
maintains, however, that the plaintiff has not made a
claim for reimbursement. Additionally, at this time,
the plaintiff has access to the board account for
community affairs and may run for a board officer
position. The actions complained of by the plaintiff
are not actual in that he may still exercise his right
to free speech. Since there is no injury-in-fact, and
injury is necessary for analysis of the second and
third elements of standing, they are not addressed.

28a
The plaintiff’s Fourteenth Amendment “due
process” claim rests on a theory that the plaintiff
suffered harm coupled with the denial of his
constitutional right to speak without retaliation. See
Paul v. Davis, 424 U.S. 693, 711 (1976).
Consequently, the Court’s determination that the
defendant did not infringe the plaintiff’s First
Amendment freedoms leads the Court to conclude
that the board did not injure his Fourteenth
Amendment rights.
V. CONCLUSION
The plaintiff’s suit must be dismissed for lack of
subject matter jurisdiction. Based on the foregoing
analysis and discussion, the defendant’s motion to
dismiss is GRANTED.
It is so ORDERED.

29a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States
____________
Court of Appeals
Fifth Circuit
No. 19-20237
FILED
____________
July 15, 2020
DAVID BUREN WILSON,

Lyle W. Cayce
Clerk

Plaintiff–Appellant
v.
HOUSTON COMMUNITY COLLEGE SYSTEM,
Defendant–Appellee
___________________
Appeal from the United States District Court
for the Southern District of Texas
__________________
ON PETITION FOR REHEARING EN BANC
(Opinion April 7, 2020, 5 Cir., _____, F.3d _____)
Before DAVIS, SMITH, and STEWART, Circuit
Judges.
PER CURIAM:
( )

Treating the Petition for Rehearing En Banc as
a Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. No member of the
panel nor judge in regular active service of the
court having requested that the court be polled
on Rehearing En Banc (FED. R. APP. P. and 5TH

30a
CIR. R. 35), the Petition for Rehearing En Banc
is DENIED.
( X ) Treating the Petition for Rehearing En Banc as
a Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. The court having
been polled at the request of one of the members
of the court and a majority of the judges who are
in regular active service and not disqualified not
having voted in favor (FED. R. APP. P. and 5TH
CIR. R. 35), the Petition for Rehearing En Banc
is DENIED. In the en banc poll, eight judges
voted in favor of rehearing (Chief Judge Owen,
Judge Jones, Judge Elrod, Judge Higginson,
Judge Willett, Judge Ho, Judge Duncan, and
Judge Oldham), and eight voted against
rehearing (Judge Smith, Judge Stewart, Judge
Dennis, Judge Southwick, Judge Haynes, Judge
Graves, Judge Costa, and Judge Engelhardt).
ENTERED FOR THE COURT:

/s/ W. Eugene Davis
UNITED STATES CIRCUIT JUDGE

31a
EDITH H. JONES, Circuit Judge, joined by
WILLETT, HO, DUNCAN, and OLDHAM, Circuit
Judges, dissenting from the denial of rehearing en
banc.
Axiomatic to the First Amendment is the
principle that government “may interject its own
voice into public discourse.” Phelan v. Laramie Cty.
Cmty. Coll. Bd. of Trustees, 235 F.3d 1243, 1247
(10th Cir. 2000) (citing Meese v. Keene, 481 U.S. 465,
480–82, 107 S. Ct. 1862, 1870–72 (1987)).1 According
to the panel opinion, however, the “government,” i.e.
Houston Community College’s Board, does not enjoy
First Amendment protection to “speak” by issuing a
censure against this gadfly legislator. In so holding,
the panel opinion exacerbates a circuit split,
threatens to destabilize legislative debate, and
invites federal courts to adjudicate “free speech”
claims for which there are no manageable legal
standards. The First Amendment was never intended
to curtail speech and debate within legislative bodies.
I respectfully dissent from the denial of rehearing en
banc.
The facts of this case are straightforward. David
Wilson, then a trustee of the Board of Trustees for
Houston Community College Systems (“HCC”),
publicly alleged that fellow Board members were
See also Pleasant Grove City v. Summum, 555 U.S. 460,
467, 129 S. Ct. 1125, 1131 (2009) (“A government entity has the
right to speak for itself. [I]t is entitled to say what it wishes, and
to select the views that it wants to express.”) (alteration in
original) (internal quotation marks and citations omitted);
Johanns v. Livestock Mktg. Ass’n, 544 U.S. 550, 553 (2005)
(“[T]he Government’s own speech . . . is exempt from First
Amendment scrutiny.”).
1

32a
violating the Board’s bylaws and not acting in HCC’s
best interests. He hired a private investigator to
check on the alleged residency of one member,
produced robocalls, and gave interviews voicing his
criticisms. The Board responded by censuring him for
acting in a manner “not consistent with the best
interests of the College or the Board, and in violation
of the Board Bylaws Code of Conduct.” Wilson
countered with a lawsuit against HCC, which alleged
that the censure violated his free speech rights and
injured his reputation.2 HCC moved to dismiss for
lack of jurisdiction and failure to state a claim, and
the district court granted that motion. A panel of this
court reversed, concluding that “a reprimand against
an elected official for speech addressing a matter of
public concern is an actionable First Amendment
claim under § 1983.” Wilson v. Houston Cmty. Coll.
Sys., 955 F.3d 490, 498 (5th Cir. 2020).
First, the panel’s holding is out of step with four
sister circuits, all of them in agreement that a
legislature’s public censure of one of its members,
when unaccompanied by other personal penalties, is
not actionable under the First Amendment.3
The Board took away certain of Wilson’s perks of office but
did not otherwise act against him or his personal property.
2

3
See, e.g., Werkheiser v. Pocono Twp., 780 F.3d 172, 181–
83 (3d Cir. 2015); Blair v. Bethel Sch. Dist., 608 F.3d 540, 543–
46 (9th Cir. 2010); Phelan v. Laramie Cty. Cmty. Coll. Bd. of
Trustees, 235 F.3d 1243, 1247 (10th Cir. 2000); Zilich v. Longo,
34 F.3d 359, 363–64 (6th Cir. 1994); see also Romero-Barcelo v.
Hernandez-Agosto, 75 F.3d 23, 34 (1st Cir. 1996) (concluding
there is “no First Amendment protection for a politician whose
rights to freedom of speech, freedom of association, and freedom
to disassociate [oneself] from unpopular views have been injured
by other politicians seeking to undermine his credibility within

33a
Decisions from the Tenth and Sixth Circuits are
particularly compelling. In Phelan, the Tenth Circuit
held—on facts strikingly similar to the case at bar—
that a college board’s censure did not infringe a board
member’s free speech rights because it did not punish
her for exercising those rights nor deter her future
speech. 235 F.3d at 1247. As the court explained,
“[t]he crucial question is whether, in speaking, the
government is compelling others to espouse or to
suppress certain ideas or beliefs.” Id. (emphasis in
original). “In order to compel the exercise or
suppression of speech, the governmental measure
must punish, or threaten to punish, protected speech
by governmental action that is ‘regulatory,
proscriptive, or compulsory in nature.’” Id. (quoting
Laird v. Tatum, 408 U.S. 1, 11 (1972). Such action
could include imprisonment, fines, injunctions, or
taxes, but “[a] discouragement that is ‘minimal’ and
‘wholly subjective’”—such as a censure resulting in
reputational injury—“does not . . . impermissibly
deter the exercise of free speech rights.” Id. at 1247–
48 (quoting United States v. Ramsey, 431 U.S. 606,
624 (1977)). Fellow legislators may strike hard verbal
blows, and all’s fair when they exercise corporate
authority to censure or reprimand one of their
members; such actions are not a violation of the First
Amendment, but its embodiment in partisan politics.
As Phelan explained, hurt feelings or reputational
injuries are “not enough to defeat constitutional
interests in furthering ‘uninhibited, robust’ debate on
public issues.” Phelan, 235 F.3d at 1248 (quoting

his own party and with the electorate”) (alteration in original)
(internal quotation marks and citation omitted).

34a

New York Times v. Sullivan, 376 U.S. 254, 270
(1964)). The panel opinion here failed to confront
Phelan on its merits.

Zilich v. Longo, 34 F.3d 359 (6th Cir. 1994), is

also exemplary.4 There, a former city councilman
sued the council members who passed a resolution,
after he left office, challenging whether he ever
resided in his district and urging legal action for
disgorgement of his official salary. As in Phelan, the
Sixth Circuit concluded that resolutions condemning
or approving the conduct of elected officials “are
simply the expression of political opinion.” Id. at 364.
“They do not control the conduct of citizens or create
public rights and duties like regular laws,” id., and
thus do not infringe on censured policymakers’ free
speech rights. Zilich reveals a very practical grasp of
the squabbles that legislative politics involve:
The First Amendment is not an instrument
designed to outlaw partisan voting or petty
political bickering through the adoption of
legislative resolutions. . . . This principle
protects Zilich’s right to oppose the mayor
without retribution and it also protects
defendants’ right to oppose Zilich by acting on
the residency issue which was left unresolved
for over two years.

The panel opinion mistakenly suggests that Zilich is
distinguishable because it involved a “resolution” against the
dissenting member rather than a “censure.” Wilson, 955 F.3d at
499–50. Query what difference this semantic distinction, even if
accurate, would make? But the panel neglects that the Board
here actually passed a “resolution of censure”!
4

35a
34 F.3d at 363. These cases’ application of true First
Amendment principles put the reasoning of our
court’s panel to shame.
Second, on its own terms, the Wilson panel
misplaced its reliance on circuit precedent,
principally cases concerning official reprimands
against elected Texas judges. See Scott v. Flowers,
910 F.2d 201 (5th Cir. 1990); Jenevein v. Willing, 493
F.3d 551 (5th Cir. 2007). These decisions stand on
insecure legal footing and are otherwise clearly
distinguishable. Scott originated in the body of law
that protects First Amendment rights of ordinary
government employees and used to be characterized
by the Connick/Pickering balancing test. Whether
this analogy was ever appropriate to evaluate judicial
impropriety is dubious, so much so that the Jenevein
court essentially abandoned it in favor of a classic
First Amendment strict scrutiny standard. But even
if these decisions remain sound,5 this court had and
has sufficient familiarity with judicial ethics to
determine the extent to which a judge’s
(constitutionally protected) statements on a matter of
public concern comport with (the compelling
governmental interest in) assuring the courts’
5
Pursuant to Garcetti v. Ceballos, 547 U.S. 410 (2006), the
scope of First Amendment protection from discipline by
governmental employers has been narrowed. See Anderson v.
Valdez¸ 845 F.3d 580, 592–93 (5th Cir. 2016) (“[W]hen public
employees [speak] pursuant to their official duties, [they] are
not speaking as citizens Such [j]ob-required speech is not
protected, even when it irrefutably addresses a matter of public
concern.”) (second, third, fourth, and fifth alterations in original)
(internal quotation marks and citation omitted). Application of
such case law to elected judges has thus become even more
tenuous.

36a
integrity and impartiality. We have no adequate
background to determine how, in the hurly-burly
political world of a legislative body, either elemental
First Amendment principles or background ethical
standards apply to “balance” the public statements of
one official against the retaliatory statements of his
co-legislators in their capacity as “the government.”

Scott and Jenevein are distinguishable for
another
reason.
Judicial
discipline
is
incommensurable with legislative debates. The body
meting out discipline in the judicial cases was the
Texas Commission on Judicial Conduct, which has
authority to impose progressive discipline up to and
including a recommendation to the state Supreme
Court of the judge’s removal from office. TEX. CONST.
art. V, § 1-a. HCC’s Board lacks authority to remove
its own members, whose ultimate discipline resides
in the ballot box. Further, judges, even elected
judges, are not equivalent to legislators when it
comes to participating in the public square. Judges
must submit our extrajudicial “speech” to
institutional discipline for the sake of public
confidence in the impartiality of our judicial work. In
contrast, the duty of legislators is precisely to “speak”
on matters of public concern, either individually or in
their capacity as the majority, without inhibition.
Such “speech” includes addressing the (mis)conduct
of the legislative body’s own members. Indeed,
“[v]oting on public policy matters coming before a
legislative body is an exercise of expression long
protected by the First Amendment.” Camacho v.
Brandon, 317 F.3d 153, 160 (2d Cir. 2003). As the
Supreme Court observed in Bond v. Floyd, 385 U.S.
116, 135–36 (1966), “[t]he manifest function of the

37a
First Amendment in a representative government
requires that legislators be given the widest latitude
to express their views on issues of policy.” Because
the sanction of fellow Board members generally lies
with the voters, policymakers—like HCC’s Board of
Trustees—must be able to “speak” by issuing official
resolutions, censures, or reprimands. Otherwise, as
in this case, the First Amendment becomes a weapon
to stifle fully protected government speech at the
hands of a fully protected speaker.
Our own case law actually respects the lack of a
constitutional remedy for ordinary intra-legislative
squabbling. In Colson v. Grohman, 174 F.3d 498 (5th
Cir. 1999), this court denied First Amendment relief
to a city councilwoman who asserted that the city and
other public officials engaged in retaliatory criticism,
false accusations, and investigations because of her
political views and votes. Id. at 500. While
acknowledging the Scott decision’s framework for
actionable First Amendment conduct against an
“elected public official,” this court nevertheless found
the hardball tactics employed against the plaintiff
insufficient to withstand summary judgment. This
court concluded that “the defendants’ allegedly
retaliatory crusade amounted to no more than the
sort of steady stream of false accusations and
vehement criticism that any politician must expect to
endure.” Id. at 514. Colson stands as a practical
rebuke to this Wilson panel’s insistence on
judicializing legislative disputes.
Finally, although it makes no attempt to explain
what happens next, the panel opinion also raises
serious questions about how to apply strict scrutiny
in a novel context and an already muddled area of

38a
the law. What judicially manageable tests are there
for deciding when a body’s censure of one of its
members’ speech violates a “compelling interest” and
isn’t “narrowly tailored”? See Whole Woman’s Health
v. Hellerstedt, 136 S. Ct. 2292, 2327 (2016) (Thomas,
J., dissenting) (“If our recent cases illustrate
anything, it is how easily the Court tinkers with
levels of scrutiny to achieve its desired result.”). The
panel leaves that question for an uninstructed
district court on remand. But I am skeptical that any
cogent judicial response is possible.
Given the increasing discord in society and
governmental bodies, the attempts of each side in
these disputes to get a leg up on the other, and the
ready availability of weapons of mass communication
with which each side can tar the other, the panel’s
decision is the harbinger of future lawsuits. It
weaponizes any gadfly in a legislative body and
inflicts an immediate pocketbook injury on the
censuring institution. Political infighting of this sort
should not be dignified with a false veneer of
constitutional protection and has no place in the
federal courts.
I respectfully dissent.

39a
JAMES C. HO, Circuit Judge, dissenting from denial
of rehearing en banc:
Holding office in America is not for the faint of
heart. With leadership comes criticism—whether
from citizens of public spirit or personal malice,
colleagues with conflicting visions or competing
ambitions, or all of the above.
Those who seek office should not just expect
criticism, but embrace it. Tough scrutiny is not a bug,
but a defining feature of our constitutional structure.
In America, we trust our citizens to determine for
themselves what is right—and to count on vigorous,
unrelenting debate to guide them. As Benjamin
Franklin once wrote, “a free constitution and freedom
of speech have such a reciprocal dependence on each
other that they cannot subsist without consisting
together.” Benjamin Franklin, On Freedom of Speech
and the Press, in 2 THE WORKS OF BENJAMIN
FRANKLIN 310 (Sparks ed., 1882).
Of course, no one enjoys being booed.1 But as de
Tocqueville observed nearly two centuries ago, “[t]he
social state naturally disposes Americans not to be
easily offended in little things,” and “the democratic
freedom they enjoy makes this indulgence pass into
the national mores.” 2 ALEXIS DE TOCQUEVILLE,
Studies show, for example, that in sports, fear of being
booed causes “referee bias” toward the home team: “[F]aced with
enormous pressure—say, making a crucial call with a rabid
crowd yelling, taunting, and chanting a few feet away—it is
natural to want to alleviate that pressure.” TOBIAS J.
MOSKOWITZ & L. JON WERTHEIM, SCORECASTING: THE HIDDEN
INFLUENCES BEHIND HOW SPORTS ARE PLAYED AND GAMES ARE
WON 159, 165 (2011).
1

40a
DEMOCRACY
(1840).

IN

AMERICA 541 (Mansfield ed., 2000)

And because our citizens don’t fear criticism, it is
only natural to insist that officials don’t either. We
expect officials in every branch of government to rise
to the challenge—not wilt under the pressure.
Churchill once wrote: “Courage is rightly esteemed
the first of human qualities, because, as has been
said, ‘it is the quality which guarantees all others.’”
WINSTON CHURCHILL, GREAT CONTEMPORARIES 211
(Muller ed., 2012) (1937). Translation: Leaders lead.
They listen to reason. But they won’t be cowed by the
mob.
No one would confuse the typical public
officeholder today for Churchill. But whatever
fortitude an official may happen to possess, we know
this to be true: The First Amendment guarantees
freedom of speech, not freedom from speech. It
secures the right to criticize, not the right not to be
criticized.
The panel here took a different view, holding that
public officials have a right not to be censured for
engaging in speech critical of others.2 Our court has
previously found such rights for judges. See Scott v.
Flowers, 910 F.2d 201, 209 (5th Cir. 1990); but see id.
at 215–16 (Garwood, J., dissenting); see also Jenevein
v. Willing, 493 F.3d 551, 562 (5th Cir. 2007). So the

Plaintiff also complained about certain “additional
measures,” beyond the words of censure, that have been taken
against him. But the panel allowed him to proceed based on
words alone. See Wilson v. Houston Cmty. Coll. Sys., 955 F.3d
490, 499 n.55 (5th Cir. 2020).
2

41a
panel understandably applied those precedents to
officials outside the judiciary.
But our sister circuits have found no such right.
See, e.g., Phelan v. Laramie Cty. Cmty. Coll. Bd., 235
F.3d 1243, 1248 (10th Cir. 2000) (“[C]ensure is
clearly not a penalty that infringes Ms. Phelan’s free
speech rights.”) (citing Zilich v. Longo, 34 F.3d 359,
364 (6th Cir. 1994)). As then-Judge Scalia once wrote,
“[w]e know of no case in which the [F]irst
[A]mendment has been held to be implicated by
governmental action consisting of no more than
governmental criticism of the speech’s content.” Block
v. Meese, 793 F.2d 1303, 1313 (D.C. Cir. 1986). After
all, the First Amendment does not “consider[]
speakers to be so timid, or important ideas to be so
fragile, that they are overwhelmed by knowledge of
governmental disagreement.” Id.
Leaders don’t fear being booed. And they
certainly don’t sue when they are. I join Judge
Jones’s excellent opinion dissenting from the denial
of rehearing en banc.

42a
APPENDIX D
RESOLUTION OF CENSURE
WHEREAS,
Houston
Community
College
(“College”) Board of Trustees (“Board”) member, Mr.
David Wilson, has used public media to criticize other
Board members for taking positions that differ from
his own, including an April 19, 2017 robocall initiated
by Mr. Wilson to the constituents of other Board
members, and (2) an April 20, 2017 interview with a
local radio station in which he identified Board
members who voted in favor of a transaction that he
opposed and accused those Board members of “not
representing the people in their district.” In doing so,
Mr. Wilson has demonstrated a lack of respect for the
Board’s collective decision-making process, a failure
to encourage and engage in open and
honest
discussions in making Board decisions, and a failure
to respect differences of opinion among Trustees; and
WHEREAS, Mr. Wilson regularly publishes
information on a website that he created and
maintains, alleging that other Board members have
engaged in unethical and/or illegal conduct, without
facts to support his allegations. In doing so, Mr.
Wilson has demonstrated a lack of respect for the
Board’s collective decision-making process and a
failure to encourage and engage in open and honest
discussions in making Board decisions, and a failure
to respect differences of opinion; and
WHEREAS, on at least two separate occasions,
Mr. Wilson hired personal investigators to conduct
surveillance of Trustee Adriana Tamez. In doing so,
Mr. Wilson has failed to interact with fellow Board

43a
members in a way that creates and sustains mutual
respect; and
WHEREAS, Mr. Wilson filed a lawsuit against
the College and Board members, complaining of the
interpretation of Board Bylaws and state law
regarding the ability of Board members to participate
in meetings remotely. In filing this lawsuit, Mr.
Wilson demonstrated a lack of respect for the Board’s
collective decision-making process and caused the
College to incur $20,983 in legal fees for the defense
of the lawsuit to date; and
WHEREAS, Mr. Wilson filed a second lawsuit
against the College and Board members, complaining
of his exclusion from closed session pursuant to Texas
Attorney General Opinion No. JM-1004. In filing this
lawsuit, Mr. Wilson demonstrated a lack of respect
for the Board’s collective decision-making process and
caused the College to incur $5,400 in legal fees for
the defense of the lawsuit to date; and
WHEREAS, Mr. Wilson created and maintains a
personal website www.davewilsonhcc.com that uses
the College’s name in violation of Board Policy BBF
(Local); and
WHEREAS, in August 2017, Mr. Wilson hired an
independent investigator to conduct an investigation
of the Board and the College without the consent of
the Board. In doing so, Mr. Wilson has demonstrated
a lack of respect for the Board’s collective decisionmaking process and a failure to encourage and
engage in open and honest discussions in making
Board decisions. These actions by Mr. Wilson also
contributed to an inquiry by HCC’s accrediting
agency, the Southern Association of Colleges and

44a
Schools Commission on Colleges (“SACSCOC”). In a
letter dated December 11, 2017, SACSCOC
referenced a news article discussing Mr. Wilson’s
independent investigation, and requested the
submission of evidence establishing that Mr. Wilson’s
actions were not indicative of a failure to comply with
SACSCOC Core Requirement 4.1.d, which requires
that the “members of the governing board are not
controlled by a minority and act with authority only
as a collective entity.”
THEREFORE, BE IT RESOLVED THAT,
because Mr. Wilson has repeatedly acted in a manner
not consistent with the best interests of the College
or the Board, and in violation of the Board Bylaws
Code of Conduct, the Board finds that Mr. Wilson’s
conduct
was
not
only
inappropriate,
but
reprehensible,
and
such
conduct
warrants
disciplinary action.
BE IT FURTHER RESOLVED THAT, Mr. David
Wilson is hereby PUBLICLY CENSURED for his
conduct. Such censorship is the highest level of
sanction available to the Board under Texas law
since neither Texas law nor board policy allow the
Board to remove a Board member from elected office.
BE IT FURTHER RESOLVED THAT, Mr. Wilson
is ineligible for election to Board officer positions for
the 2018 calendar year. Further, for College fiscal
year 2017-2018, Mr. Wilson is ineligible for
reimbursement for any College-related travel. Any
requests for access to the funds in his Board account
for community affairs will [require] Board approval.
The Board also recommends that Mr. Wilson
complete additional training relating to governance

45a
and ethics. Mr. Wilson is directed by the Board to
immediately cease and desist from all inappropriate
conduct and any repeat of improper behavior by Mr.
Wilson will constitute grounds for further
disciplinary action by the Board.
ADOPTED THIS 18 day of Jan., 2018

Dr. Carolyn Evans-Shabazz

Chairman, Board of Trustees
Houston Community College
ATTEST:

Zeph Capo

Secretary, Board of Trustees
Houston Community College

